No:
IN THE SUPREME COURT OF THE UNITED STATES
SHANE MAURITZ VANDERGROEN,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Sup. Ct. R. 39.1, petitioner Shane Mauritz Vandergroen requests
leave to file the accompanying petition for writ of certiorari without prepayment of
costs and to proceed in forma pauperis. Petitioner was previously represented by
the Federal Public Defender for the Northern District of California, whom a
Northern District of California magistrate judge appointed pursuant to 18 U.S.C. §
3006A(a)(1)(A). Therefore, under Rule 39.1 and 18 U.S.C. § 3006A(d)(7), Petitioner
has not attached the affidavit required by 28 U.S.C. §§ 1746 and 1915(a).
Dated: December i, 2020

STEVEN G. KALAR
Fedetal,Puhuic Defender
ERO
TTHEWS*
Assistant Federal Public Defender
* Counsel of Record
1301 Clay Street, Suite 1350N
Oakland, CA 94612
(510) 637-3500
jerome_matthews@fd.org

la

